The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


November 10, 2011                                                          OIG-JJ-024

Commissioners:

This memorandum transmits the Independent Auditor’s Report on Internal Controls (OIG-AR-
12-03) associated with the audit of the Commission’s financial statements for fiscal year 2011.

We contracted with the independent certified public accounting firm, Castro & Company LLC,
to conduct the financial statement audit. The contract required that the audit be conducted in
accordance with U.S. generally accepted government auditing standards and these auditing
standards require a report on Internal Control to be produced as part of the audit.

This report contains 12 recommendations for corrective action. In the next 30 days, please
provide me with your management decisions describing the specific actions that you will take to
implement each recommendation.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review that included monitoring the performance of the audit, reviewing Castro & Company’s
report and related documentation, and making inquiries of its representatives. Our final review
disclosed no instances where Castro & Company did not comply, in all material respects, with
the U.S. generally accepted government auditing standards; however, this final review cannot be
construed as an audit, and is not intended to enable us to express, and we do not express, any
opinion on the Commission’s internal control. Castro and Company is solely responsible for this
report dated November 8, 2011, and the conclusions expressed in the report.

Thank you for the cooperation and courtesies extended to the auditors and my staff during this
audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                    2121 Eisenhower Ave.
                                                                                    Suite 606
                                                                                    Alexandria, VA 22314
                                                                                    Phone: 703.229.4440
                                                                                    Fax: 703.859.7603
                                                                                    www.castroco.com

                        Independent Auditor’s Report on Internal Control


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2011, and have issued our report thereon dated November 8,
2011.

In planning and performing our work, we considered ITC's internal control over financial reporting
by obtaining an understanding of the design effectiveness of ITC's internal control, determining
whether controls had been placed in operation, assessing control risk, and performing tests of ITC's
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not to express an opinion on the effectiveness of ITC's internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
ITC's internal control over financial reporting. We limited our internal control testing to those
controls necessary to achieve the objectives described in the Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers' Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring
efficient operations.

Our consideration of internal control over financial reporting was for the limited purposes described
in the preceding paragraph and would not necessarily identify all deficiencies in internal control over
financial reporting that might be significant deficiencies or material weaknesses. However, as
discussed below, we identified certain deficiencies in internal control over financial reporting that
we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a deficiency in internal control, or a
combination of deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles (GAAP) such that there is more than a remote likelihood that a misstatement of the
entity's financial statements that is more than inconsequential will not be prevented or detected.

A material weakness is a significant deficiency, or combination of significant deficiencies, that result
in a more than remote likelihood that a material misstatement of the financial statements will not be
prevented or detected.
Independent Auditor’s Report on Internal Control
Page 2


Our consideration of the internal control over financial reporting was for the limited purpose
described above and would not necessarily identify all deficiencies in the internal control that might
be significant deficiencies and, accordingly, would not necessarily disclose all significant
deficiencies that are also considered to be material weaknesses. However, we consider the first three
deficiencies described below to be material weaknesses.

We also noted less significant matters involving internal control and its operations which we have
reported to ITC management in a separate letter dated November 8, 2011.

This report is intended solely for the information and use of the management and the Office of
Inspector General of ITC, OMB, Government Accountability Office, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




November 8, 2011
Alexandria, VA
Independent Auditor’s Report on Internal Control
Page 3


                                  MATERIAL WEAKNESSES



I.     Insufficient Resources and Personnel with Appropriate Skill Sets (Repeat Condition)

ITC management reported to the Office of Inspector General that ITC implemented all of the
“Management Decisions” related to the recommendations from last year’s Independent Auditor’s
Report on Internal Control. However, significant internal control weaknesses still exist and are
identified in this report. The fact that a significant number of the findings were not corrected, but
ITC management considered all Management Decisions complete relating to the prior year’s internal
control report recommendations, continues to highlight that ITC does not have adequate resources
and personnel with appropriate skill sets and expertise to perform financial management accounting
and reporting functions. However, we were able to determine that the fiscal year 2011 financial
statements are fairly presented because ITC performed a significant data clean-up right before year-
end, but the controls were not in place for the majority of the fiscal year.

Furthermore, ITC has not developed a program to cross train finance personnel in performing day-
to-day financial management accounting and financial reporting tasks. Specifically, ITC did not
have a systems accountant on staff with expertise in the accounting system. Accordingly, an
understanding of the system’s key processes did not exist, which impeded ITC’s ability to process
accounting transactions accurately and generate financial data and reports in a complete, timely, and
accurate manner.

Government Accountability Office’s (GAO’s) Standards for Internal Control in the Federal
Government states:

       Management sets the objectives, puts the control mechanisms and activities in place,
       and monitors and evaluates the control. However, all personnel in the organization
       play important roles in making it happen. All personnel need to possess and maintain
       a level of competence that allows them to accomplish their assigned duties, as well as
       understand the importance of developing and implementing good internal control.
       Management needs to identify appropriate knowledge and skills needed for various
       jobs and provide needed training, as well as candid and constructive counseling, and
       performance appraisals.

Without the adequate staffing levels and the proper skill sets, ITC will continue to encounter
challenges in its accounting and financial reporting processes. By not adequately performing
management functions specific to monitoring, analysis, oversight, and reconciliations, discrepancies
may exist but go undetected and uncorrected; thereby causing the financial information to be
misstated. Effective management oversight greatly increases ITC’s ability to proactively identify and
resolve issues that could result in misstatements in financial accounting and reporting records.
Independent Auditor’s Report on Internal Control
Page 4


Recommendations:

We made recommendations in the prior year related to this issue that ITC management has
undertaken certain actions to implement. Specifically, the ITC’s Supplement to the Strategic Human
Capital Plan: Reorganization of Agency-wide Administrative Functions, 2009-2013, discusses that
ITC will establish a new Office of the Chief Financial Officer (OCFO) with a Chief Financial
Officer (CFO) who reports directly to the Commission. The CFO will be a Senior Executive Service
(SES) level position, with the requisite skills and Federal expertise to address the ITC’s financial
management and reporting challenges. The CFO will oversee the budget, procurement, accounting,
financial management, financial reporting internal controls, risk management, and asset evaluation.
In addition, the CFO will be responsible for the development of efficient financial and administrative
reporting and data information systems. To enhance the CFO’s likelihood of meeting the challenges
of standing up a newly created division, all hiring decisions for the newly created positions (Director
of Budget, Systems Accountant, Internal Auditor/Financial Controls Manager, Program Analysts,
Financial Manager, Junior Contract Specialist, and Procurement Assistant) will not be finalized until
a CFO is hired by the Commission.

ITC externally posted a position announcement for the CFO. Senior leadership is in the evaluation
assessment phase of recruiting the CFO.


II.       Inadequate Controls over Undelivered Orders (i.e., Open Obligations) Accounts
          Payable, and Expenditures (Repeat Condition)

During our testing, we noted multiple issues surrounding the accounting for open obligations,
accounts payable, and expenditures as summarized below, which further substantiates the finding
reported above in Material Weakness I, Insufficient Resources and Personnel with Appropriate Skill
Sets.

      x   Even though improvements were made over the prior fiscal year, sufficient documentation
          was not provided to support the validity of certain Undelivered Orders (UDO) balances (i.e.
          obligating documents, invoices). Additionally, invalid UDOs were still recorded in the
          general ledger for the majority of the fiscal year, even though the period of performance had
          expired and the final invoice had been received. We were unable to rely on our interim
          testing as of June 30, 2011 for the UDO balance, accounts payable (AP), and expenditures
          because of a significant number of testing exceptions, which required us to perform expanded
          testing related to all open obligations as of September 30, 2011. Since ITC did not perform
          an adequate data clean-up of the UDO and AP balances prior to June 30, 2011, management
          had to perform a significant data clean-up prior to year-end, where numerous UDOs were
          deobligated because the amounts were invalid.

      x   Accruals were not properly recorded throughout the fiscal year. To determine the amount to
          record as AP on the financial statements, ITC performed a review of open obligations as of
          September 30, 2011 to determine if an accrual was needed. The review consisted of
          contacting each Contracting Officer’s Technical Representative (COTR) with a list of
Independent Auditor’s Report on Internal Control
Page 5


       general ledger-generated open obligations and having the COTR state whether the
       obligations were valid. If the obligation was valid, the COTR should have provided an
       amount to accrue for AP as of September 30, 2011. However, ITC did not have a detailed,
       logical methodology to accrue expenses for goods/services that were received but not yet
       paid for as of September 30, 2011. We noted that certain accrued amounts were not
       supported by proper documentation such as an estimate of services received based on past
       services received and paid. We also noted that COTRs provided certain accrual amounts
       without clearly documenting an explanation on the methodology of why the amount should
       be accrued. Additionally, ITC frequently recorded the accrual (payable) when the invoice
       was received rather than when goods and/or services were received. Our interim testing
       performed as of June 30, 2011 also identified the same issues related to the recording of
       accruals.

   x   ITC does not use a standardized numbering schema for all procurement actions. As a result,
       when a modification was created to an existing contract, a completely new obligation
       document was created that did not have a relationship to the original contract in the financial
       system. Invoices are often split between the different obligations, creating problems trying to
       map and reconcile the obligations and invoices in the general ledger.

   x   The Department of the Interior (DOI), National Business Center (NBC) financial
       management system requires the Designated Oracle Representative (DORs) and finance staff
       to enter data into fields where the headings do not properly correspond to the type of data
       being entered. The DORs are required to enter the price of the requisition in the quantity
       column and quantity in the price column, and finance staff are required to complete the
       “quantity” field in the payment screen as the payment amount. If the DOR has entered the
       quantity as “the total price of the contract” and the price as “1” in the requisition module, the
       payment will be debited to account 4801, “Undelivered Orders – Obligations, Unpaid,”
       properly. However, if the DOR has entered the quantity in the quantity heading and the price
       in the price heading, then the UDO (4801) account is debited for the incorrect amount.
       Additionally, the format the DORs use for quantity and price also has a direct impact on the
       payment of invoices. If the DOR enters the quantity as a percentage, then whenever a
       payment is made, the percentage entered will be debited to the 4801 account instead of the
       approved payment amount.

By not having controls in place to detect and prevent the improper debiting of the 4801 account as a
result of a payment, Undelivered Orders – Obligations, Unpaid may be misstated. For example, we
noted that invoices were approved for payment and Finance entered the payments and they were
paid by Treasury correctly. However, the DOR did not set the requisition up as unit quantity “as the
total price of the contract.” As a result, the UDO (4801) was debited for the incorrect amount. The
debit was based on how the DOR set up the quantity. Currently, there are no controls in place to
prevent and detect this type of error. This type of error might be caught when Finance tries to post a
payment and there is not enough obligated in the DOI NBC financial system to make the payment.
Finance contacts the DORs to determine how the quantity was entered and request that an
adjustment be made to quantity. Afterwards, the previous payment that incorrectly reduced the
obligation is taken out and reentered with the proper quantity so additional payments can be posted
to the obligation.
Independent Auditor’s Report on Internal Control
Page 6


In the prior fiscal years, we recommended to ITC management to document procedures to
implement policies for monitoring obligations, operating expenses, and related AP on a routine
basis. We reviewed ITC Management’s Decision regarding this recommendation, and even though
ITC management created policies, the policies were not always followed.

Additionally, in the prior fiscal years, we recommended to ITC management to train responsible
personnel on how to monitor obligations, operating expenses, and AP to enhance compliance with
the applicable requirements.        We reviewed ITC Management’s Decision regarding this
recommendation, and even though ITC management provided training, the training was not
sufficient because the internal controls were not in place throughout the fiscal year related to UDOs
and AP. Obligation errors continued to occur, and the accrual methodology was not clearly
documented to support the accruals recorded.

Finally, in the prior fiscal years, we recommended to ITC management to perform a data clean-up
for all open obligations and AP documents to ensure that the balances are properly reported, with
appropriate adjustments posted at the detailed general ledger level.              We reviewed ITC
Management’s Decision regarding this recommendation, and even though ITC management stated
that it completed a data clean-up, it was not thorough or sufficient, because we continued to note
significant errors, and adjustments continued to not be posted at the detailed general ledger level.

The fact that the above internal control weaknesses related to the accounting for open obligations,
accounts payable, and expenditures still exist, further substantiates the finding reported above in
Material Weakness I, Insufficient Resources and Personnel with Appropriate Skill Sets.

GAO’s Standards for Internal Control in the Federal Government states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form. All documentation and
       records should be properly managed and maintained.

The Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting for Selected
Assets and Liabilities states:

       Accounts payable are amounts owed by a Federal entity for goods and services
       received from, progress in contract performance made by, and rents due to other
       entities…When an entity accepts title to goods, whether the goods are delivered or in
       transit, the entity should recognize a liability for the unpaid amount of the goods. If
       invoices for those goods are not available when financial statements are prepared, the
       amounts owed should be estimated.

By not performing a review of open obligations, expenditures, and accounts payable on a routine
basis, financial data used to generate management reports or financial reports required by applicable
laws and regulations may be over or understated.
Independent Auditor’s Report on Internal Control
Page 7


Recommendations:

We recommend that ITC management:

       1. Create an obligation folder for each open obligation.

       2. Create a detailed checklist that identifies the contents to be included in each obligation
          folder, to include at a minimum, all obligation documents, invoices, and quarterly accrual
          amounts and methodologies.

       3. Reconcile all open obligation folders to the general ledger.

       4. Establish and implement quality control procedures for the open obligation reviews.

       5. Establish and implement a standardized numbering schema to be used for all procurement
          actions.

       6. Post financial transactions, including adjustments at the detailed general ledger transaction
          level, including accruals, deobligations, and refunds.

       7. Research and correct all errors based on the unit difference between the DORs entered
          quantity and the Finance entered quantity.

       8. Coordinate with the DOI NBC and request that the financial application be modified so that
          field headings correspond to the data being entered.


III.       Inadequate Controls Surrounding the Procurement Process (Repeat Condition,
           Modified)

We reviewed ITC Management’s Decisions regarding the recommendations made in the prior year’s
internal control report, and even though ITC management stated that all actions related to
procurement were completed, we noted numerous instances where procurement documents were not
adequately documented to consistently demonstrate compliance with the requirements of the Federal
Acquisition Regulation (FAR). For example, we noted instances where the procurement documents:

       x   Insufficiently explained the purpose of the services to be provided;

       x   Were inconsistent and contained errors related to funding amounts, delivery dates, and
           periods of performance;

       x   Lacked documentation to support the reason or amount for modifications, or were not signed
           by the contracting officer;
Independent Auditor’s Report on Internal Control
Page 8


   x   Did not contain substantiation why the contracting officer determined to offer multiple
       vendors contracts from a single award solicitation;

   x   Did not contain substantiation why the contracting officer determined to add option years to a
       sole source contract without recompeting; and

   x   Sole source justification letters did not have the required content or proper approvals.

Section 4.801 General of the FAR states:

   (a) The head of each office performing contracting, contract administration, or paying
   functions shall establish files containing the records of all contractual actions.
   (b) The documentation in the files (see 4.803) shall be sufficient to constitute a complete
   history of the transaction for the purpose of—
       (1) Providing a complete background as a basis for informed decisions at each step in
       the acquisition process;
       (2) Supporting actions taken;
       (3) Providing information for reviews and investigations; and
       (4) Furnishing essential facts in the event of litigation or congressional inquiries.

The FAR is the primary regulation for use by all Federal Executive agencies in their acquisition of
supplies and services with appropriated funds. Section 1.602 Contracting Officers, 1.602-1
Authority, of the FAR states, “(b) No contract shall be entered into unless the contracting officer
ensures that all requirements of law, executive orders, regulations, and all other applicable
procedures, including clearances and approvals, have been met.”

ITC contracting officers did not perform a sufficient review of the procurement documents prior to
the release of the documents, which further contributed to the lack of adequate internal controls over
the processing, approval, and documentation surrounding procurement efforts. Additionally, there
has been significant turnover in senior officials in the procurement office, which has contributed to
the inadequate internal controls over the procurement processes.

By not following the written policies and specific procedures for procurement efforts, ITC increases
the risks of non-compliance with applicable laws and regulations, and the possibility that a material
error or fraud may not be prevented or detected and corrected on a timely basis. The fact that the
above internal control weaknesses related to procurement still exist, further substantiates the finding
reported above in Material Weakness I, Insufficient Resources and Personnel with Appropriate Skill
Sets.

Recommendations:

We recommend that ITC management:
Independent Auditor’s Report on Internal Control
Page 9


      9. Review all open ITC procurement files to ensure all FAR required documentation is in the
         contract file such as, requisitions, solicitation information, documentation of quotes,
         statements of work, all signed modifications, etc.

      10. Reconcile the open ITC procurement files to the open obligation folders.

      11. Provide additional training to all staff involved in the procurement cycle (e.g., requestors,
          procurement staff, and finance staff) to communicate what documentation is needed and
          considered adequate to support the procurement action.



                                    SIGNIFICANT DEFICIENCY


IV.       Inadequate Internal Controls over Financial Reporting (Repeat Condition, Modified)

During testing of ITC’s financial reporting, we noted that major improvements were made over the
prior year in producing its quarterly financial statements and related reconciliations. However,
during our review of ITC's financial statement and reconciliation preparation process, we identified
certain issues, as summarized below, impacting ITC's ability to effectively accumulate, assemble,
and analyze information presented in its financial statements in accordance with applicable
guidance. Specifically, we noted the following:

      x   A significant error was made in one of the notes related to undelivered orders in the original
          year-end draft financial statements. ITC made the necessary correction to the final issued
          financial statements.

      x   Reconciliations between the subsidiary listings and the general ledger on key financial
          accounts were not well documented, contained errors, and did not always contain the
          signatures evidencing the review and approval for the reconciliation as required by the ITC
          Accounting Manual. For example, there were numerous errors on the year-end AP
          reconciliation, and it did not contain an approval by ITC management.

      x   A significant number of transactions were processed through the use of manual journal
          vouchers throughout the fiscal year, instead of posting the adjustments at the detailed
          transaction level in the general ledger. Certain of these manual journal vouchers contained
          errors. For example, ITC received refunds from vendors for erroneous payments, and the
          manual journal vouchers done to record the refunds were posted to the wrong accounts, and
          weren’t posted to the general ledger at the transaction level. Although manual journal
          vouchers in and of themselves are not considered an issue, they do increase the risk for
          errors.
Independent Auditor’s Report on Internal Control
Page 10


These errors occurred because of ineffective management reviews and approvals to ensure that
transactions and adjustments were accurate and properly supported. A major objective of internal
control is to ensure the integrity of the underlying accounting data supporting the financial
statements. A key control is performing reconciliations of significant account balances. An adequate
reconciliation provides assurances that transactions are properly processed and recorded in the
accounting records in a timely manner.

GAO’s Standards for Internal Control in the Federal Government states:

       Internal control should generally be designed to assure that ongoing monitoring
       occurs in the course of normal operations. It is performed continually and is ingrained
       in the agency’s operations. It includes regular management and supervisory activities,
       comparisons, reconciliations, and other actions people take in performing their duties.
       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination.

       Control activities are an integral part of an entity’s planning, implementing,
       reviewing, and accountability for stewardship of government resources and achieving
       effective results…They include a wide range of diverse activities such as approvals,
       authorizations, verifications, reconciliations, performance reviews, maintenance of
       security, and the creation and maintenance of related records which provide evidence
       of execution of the activities as well as appropriate documentation.

OMB Circular No. A-123, Management’s Responsibility for Internal Control states:

       Management has a fundamental responsibility to develop and maintain effective
       internal control. Federal employees must ensure that Federal programs operate and
       Federal resources are used efficiently and effectively to achieve desired objectives.
       Programs must operate and resources must be used consistent with agency missions,
       in compliance with laws and regulations, and with minimal potential for waste, fraud,
       and mismanagement.

Effective internal control provides assurance that significant weaknesses in the design or operation
of internal control, that could adversely affect the ITC’s ability to meet its objectives, would be
prevented or detected in a timely manner. However, based on the issues noted above, ITC
management needs to strengthen its internal control surrounding financial management to ensure
compliance with applicable laws and regulations throughout the year.

Recommendations

We recommend that ITC management:

   12. Document quality control procedures performed related to the review and approval of
       financial statements and related account reconciliations.
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
